<html>
<title> - FISCAL AND MANAGEMENT PRACTICES OF THE U.S. COMMISSION ON CIVIL RIGHTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                  FISCAL AND MANAGEMENT PRACTICES OF 
                  THE U.S. COMMISSION ON CIVIL RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2005

                               __________

                           Serial No. 109-22

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-017                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Texas                  JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                  Mindy Barry, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              

                             MARCH 17, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan.....................................     3

                               WITNESSES

Mr. Russell G. Redenbaugh, Commissioner, U.S. Commission on Civil 
  Rights
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. Michael Yaki, Commissioner, U.S. Commission on Civil Rights
  Oral Testimony.................................................     9
  Prepared Statement.............................................    10
Mr. Kenneth L. Marcus, Staff Director, U.S. Commission on Civil 
  Rights
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Mr. George Harbison, Director of Human Resources, and Acting 
  Chief of Budget and Finance, U.S. Commission on Civil Rights
  Oral Testimony.................................................    18
  Prepared Statement.............................................    35

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of George Harbison, Director of Human 
  Resources, and Acting Chief of Budget and Finance, U.S. 
  Commission on Civil Rights.....................................    35
Response to post-hearing questions submitted by Chairman Steve 
  Chabot to Michael Yaki, Commissioner, U.S. Commission on Civil 
  Rights.........................................................    39
Response to post-hearing questions submitted by Chairman Steve 
  Chabot to Kenneth L. Marcus, Staff Director, U.S. Commission on 
  Civil Rights...................................................    43
Response to post-hearing questions submitted by Chairman Steve 
  Chabot to George Harbison, Director of Human Resources, and 
  Acting Chief of Budget and Finance, U.S. Commission on Civil 
  Rights.........................................................    68
Letter of Resignation from Russell G. Redenbaugh, Commissioner, 
  U.S. Commission on Civil Rights, to Majority Leader Bill Frist.    73
Letter to Chairman Steve Chabot from Abigail Thernstrom, Vice 
  Chairman, and Jennifer C. Braceras, Commissioner, U.S. 
  Commission on Civil Rights.....................................    74

 
                  FISCAL AND MANAGEMENT PRACTICES OF 
                  THE U.S. COMMISSION ON CIVIL RIGHTS

                              ----------                              


                        THURSDAY, MARCH 17, 2005

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:08 a.m., in 
Room 2143, Rayburn House Office Building, Hon. Steve Chabot 
(Chair of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order. If somebody 
wants to get the door back there. Thank you.
    First of all, I want to wish everyone here happy St. 
Patrick's Day, one of the big occasions in our country and 
world history, and so we appreciate everybody--I even have my 
green on here today. I'm sure we'll be seeing a lot of folks 
the rest of the day that are so dressed.
    We are here today for our Constitution Subcommittee 
oversight hearing on the United States Commission on Civil 
Rights. While this type of agency oversight hearing typically 
occurs every year, we have not held an oversight hearing for 
the Civil Rights Commission since 2002. While this gap can be 
attributed to a number of reasons, the period was not marked by 
a lack of oversight. In fact, during this time the Government 
Accounting Office, the GAO, has conducted four investigations 
on our behalf, and staff of the House and Senate Committees on 
the Judiciary have been actively engaged in a direct 
investigation as well. All of these investigations have 
included looking into allegations of financial and 
administrative mismanagement by Commission leadership.
    We are here today to obtain additional information 
regarding the current status of the Commission from Commission 
representatives. I know you have a monthly Commission meeting 
tomorrow and recognize that your time is precious. So we thank 
you very much for being here today.
    The Civil Rights Act of 1957 established the United States 
Commission on Civil Rights as a nonpartisan fact-finding 
agency. The Commission is composed of eight members: four 
Commissioners are appointed by the President, two by the 
Speaker of the House, and two by the President pro tem of the 
Senate. Even though the Commission is an independent agency, 
its structure was designed to ensure that both Congress and the 
executive branch are stakeholders and have continued input into 
the Commission. The Commission has no enforcement power. The 
Commission fulfills its statutory mission by, first, 
investigating discrimination claims on the basis of color, 
race, religion, sex, age, disability, or national origin; 
second, collecting and studying information; third, appraising 
laws and policies of the Federal Government; fourth, serving as 
a national clearinghouse for information; and, fifth, preparing 
public service announcements and advertising campaigns. As an 
agent both of Congress and the executive branch, the Commission 
must submit reports of its findings to Congress and the 
President.
    Since the Commission's inception in 1957, Congress has 
extended the life of the Commission nine times. The 
Commission's latest authorization expired on September 30, 
1996. Despite the lack of authority, Congress continues to 
appropriate the Commission roughly $9 million each year.
    I have been personally involved in oversight of the 
Commission over the last several years in my capacity as 
Chairman of this Committee. This is my third term as such. I've 
witnessed the decline in the public's confidence in the 
Commission's work product under the previous Chair's direction. 
Nevertheless, I have high expectations for this Commission and 
for the important work of protecting civil rights. I am 
concerned, however, with reports that reforms, which were 
promised, have not yet been undertaken since new leadership has 
taken charge of the Commission.
    I believe that protecting civil rights is vital to 
protecting all of the rights afforded by the Constitution and 
codified in the Civil Rights Act. Thus, civil rights must 
continue to play a prominent role in American society.
    In my position as Chairman of the Subcommittee, I'm 
committed to working to ensure that the Civil Rights Commission 
does the best work possible, not just for Congress and the 
President but for the American public.
    I look back at how many times I and my Republican and 
Democratic predecessors were assured that the Commission was 
going to implement reforms that would allow the agency to 
function in a credible and efficient manner. I'm to date not at 
all satisfied with the Commission's reform efforts. Much needs 
to be done.
    As we sit here today, changes have yet to be made. Let me 
be clear: My concern is not just with the financial and 
management practices that have been the subject of many 
investigations. I am also concerned deeply about the project 
process used by the Commission results in substantive material 
that does not stand up to academic scrutiny. This means that 
reports are being issued under the seal of the Federal 
Government that have not been tested for accuracy of bias. I 
believe that these practices, along with the financial and 
management changes, must be made so that the credibility of the 
Commission can be restored.
    The mismanagement that has plagued the Commission for years 
undermines public confidence in the Commission's work. Unless 
the Commission institutes reforms to its operating practices, 
including to the methods that it uses to fulfill its statutory 
mission, the Commission will not be able to be a serious fact-
finding agency that informs the public about the state of civil 
rights in America. In view of these concerns, I know that all 
Members look forward to hearing from our witnesses here this 
morning, and there will be a time for the issuing of subpoenas 
a bit later when we have a reporting and--a working and 
reporting quorum, and then there is--on an unrelated matter, on 
CIANA, there will be another hearing--actually, not a hearing 
but a markup later on in this by the same Committee.
    Those are my remarks. Mr. Nadler is not yet here, so I 
don't know if Mr. Conyers or Mr. Watt would like to make an 
opening statement. Mr. Conyers?
    Mr. Conyers. Yes, thank you, Mr. Chairman. Good morning----
    Mr. Chabot. Good morning.
    Mr. Conyers. --to all of our Committee Members and 
witnesses. I'd like to welcome you here and just suggest some 
things that we need to try to put in perspective.
    First of all, we have a number of Commissioners that at 
least I haven't heard from or talked with, and what it suggests 
to me, Chairman Chabot, is that we may need another hearing 
just to get the lay of the new Commissioners and what their 
points of view are and who they are, really. We have missing--
or we haven't met with yet Commissioners Kirsanow, McReynolds, 
Taylor, and Meeks, and I think that that would be important for 
all of us to begin to get acquainted.
    Now, how do we get the Civil Rights Commission on its feet 
again? Well, they only get $9 million, so this is not one of 
the world's greatest challenges that the Congress faces. It 
would seem to me that the unfreezing of the Commission budget 
would be incredibly important, and probably the sooner the 
better.
    We are going to have a meeting on the issuance of 
subpoenas, and, of course, the interesting thing is, is it to 
end the cycle of blame or is it going to continue the cycle of 
blame? I'd like all of you distinguished people here today to 
try to make sure I understand what it is--where can we cut it 
off at from the past and get moving for the present.
    In a more perfect world, I would probably like to see an 
independent manager that would relieve the Commissioners of the 
responsibility of trying to micromanage and deal with these 
large issues as well.
    The other thing we have to develop is an agenda, Mr. 
Chairman, or the discussion around an agenda, and for that we 
probably would need Mr. McReynolds, and we'd like to get ideas 
from everybody as to what they see as the goal and role of the 
U.S. Commission on Civil Rights.
    Now, let's assume that in the august chambers of the 
Judiciary Committee we could--we'd come to this wonderful new 
agreement that I'm trying to outline here. Without State 
advisory commissions being re-energized, it's going to be very 
hard to get to the base of your work. So it seems to me that 
that could be one of the very important things that maybe the 
independent manager, if there were one, or the Commission 
itself could quickly take care of.
    So that's how I view us starting off, Mr. Chairman, and I 
hope that we'll be able to work cooperatively toward that goal.
    Mr. Keenan Keller suggests that I ask for permission, 
unanimous consent so that if there are additional questions 
that we want to send the Commissioners, we'd be able to do 
that.
    Mr. Chabot. Without objection, so ordered.
    Mr. Conyers. Thank you very much.
    Mr. Chabot. Thank you very much, and I share many of the 
things which you stated in your opening statement, and I would 
hope that to the extent possible, although we don't do a lot of 
things in this august body in a bipartisan manner, with respect 
to civil rights it ought to be done in a bipartisan manner. And 
I look forward to working both with Mr. Nadler and yourself and 
any other Members that would like to do that.
    Mr. Conyers. Thanks so much.
    Mr. Chabot. We thank you as well.
    Are there any other Members that would like to make opening 
statements? If not, we'll proceed with the introduction of the 
witnesses.
    Our first witness here this morning will be Commissioner 
Russell Redenbaugh, and on a personal note, I'd like to 
recognize Commissioner Redenbaugh for his contributions to the 
Commission over the last 15 years. We were, I think, all 
disappointed to learn of his resignation and wish him the best 
in his future endeavors.
    Mr. Redenbaugh is a financial and economic strategist, 
and--excuse me, economic and business adviser in building 
wealth and power, executive, author, teacher, and Commissioner 
on the U.S. Civil Rights Commission. He is the managing 
director of Kairos, Inc., in Philadelphia, PA, which both 
invests in and advises companies that are undergoing 
fundamental changes, all of which are producing innovations in 
either or both their products and business models. He has been 
a Commissioner, as I mentioned, of the U.S. Commission on Civil 
Rights for 15 years since being appointed on February 8, 1990. 
Commissioner Redenbaugh has served as an instructor at the 
University of Pennsylvania School of Arts and Sciences where he 
designed and taught a graduate course entitled ``Work Process 
Redesign Theory and New Practices in the Dynamics of 
Organization Program.'' He is currently a director of the 
Joseki Group in Menlo Park, CA, Associated Services for the 
Blind in Philadelphia, PA, and the Lexington Institute in 
Washington, D.C. He is a recipient of the Louis Braille Award 
given by Associated Services for the Blind in Philadelphia, PA. 
In his spare time, Commissioner Redenbaugh became the 1997 
National Jujitsu Federation Champion, the 2003 and 2004 World 
Jujitsu Federation World Champion, and participated in running 
the torch across America for the U.S. Olympic Committee in 
advance of the 2002 Winter Olympics. Finally, Commissioner 
Redenbaugh is widely published on topics ranging from 
management reforms to financial strategy to civil rights. He is 
a chartered financial analyst and a chartered investment 
counselor and received his MBA from the Wharton School at the 
University of Pennsylvania and his B.S. from the University of 
Utah. And we thank you and appreciate your being here this 
morning, Mr. Redenbaugh.
    The second witness will be Commissioner Michael Yaki. 
Commissioner Yaki was appointed to the U.S. Commission on Civil 
Rights in February 2005. He is a partner in the San Francisco 
law firm of Jeffer, Mangels, Butler & Marmo, and prior to 
joining his present firm was a partner in another law firm. 
Since 1999, he has been a freelance writer, authoring 
editorials for the San Francisco Chronicle on sports, politics, 
and international relations. He has contributed to The New York 
Times Opinion/Editorial section and has been a commentator on 
several radio stations. Commissioner Yaki was a member of the 
San Francisco Board of Supervisors from 1996 to 2001. He was 
the convener and Chair of the first citywide Summit on Children 
and Youth in 1996. He also was the Chair of San Francisco 
Transportation Authority, the director of the Golden Gate 
Bridge and Highway District, of the California State 
Association of Counties, of the Bay Area Air Quality Management 
District, and of the San Francisco Employee Retirement System. 
He has been a lecturer of political science and urban studies 
at San Francisco State University. He also was the district 
director for Congresswoman Nancy Pelosi. Commissioner Yaki 
received a B.A. from the University of California, Berkeley, a 
J.D. from Yale Law School, and was a law clerk to the Honorable 
Harry Low in the California Court of Appeals.
    In his spare time, Commissioner Yaki is a director of the 
San Francisco Zoological Society and was the founder of the 
Presidio Day Camp for Underprivileged Children, was an 
elementary school volunteer reader, was the host and a 
fundraiser for the Tiger Woods Community Foundation Golf 
Clinic, and was the fundraising campaign Chair for the Say Yes 
Summer Youth Jobs Program. He is the recipient of the San 
Francisco Bay Area YMCA Building Strong Kids Award, a two-time 
recipient of the FDR Club for Persons with Disabilities 
Legislator of the Year Award, and the Organization of Chinese 
Americans Community Service Award. And we welcome you here this 
morning, Mr. Yaki.
    Our third witness is the U.S. Commission on Civil Rights 
Staff Director, Kenneth Marcus. Mr. Marcus was appointed to 
this position by President George W. Bush with the concurrence 
of the Commission on December 6th, so he's actually only been 
in this position for several months now. As Staff Director, he 
serves as the agency's chief executive officer, responsible for 
providing leadership and direction to the agency staff. In this 
position, Mr. Marcus continues his long-time work of combating 
discrimination and working on behalf of those who have been 
denied basic constitutional and civil rights. Mr. Marcus is an 
experienced civil rights attorney, litigator, and leader.
    Before assuming his current duties, Mr. Marcus was 
delegated the authority of Assistant Secretary of Education for 
Civil Rights and served as the Deputy Assistant Secretary of 
Education for Enforcement. As head of the Education 
Department's Office for Civil Rights, Mr. Marcus was the 
principal civil rights adviser to the U.S. Secretary of 
Education and oversaw the resolution of approximately 5,000 
civil rights cases per year through the office's 12 enforcement 
offices.
    While in this position, he developed and implemented 
proactive enforcement initiatives and issued policy guidance in 
several areas. Mr. Marcus also served at the time as a 
Commissioner on the U.S. Commission on Brown v. Board of 
Education.
    Prior to joining the Department of Education, Mr. Marcus 
served in the U.S. Department of Housing and Urban Development 
as the General Deputy Assistant Secretary for Fair Housing and 
Equal Opportunity. As head of HUD's Office of Fair Housing and 
Equal Opportunity, Mr. Marcus was the principal civil rights 
adviser to the U.S. Secretary of Housing and Urban Development 
and oversaw the work of the office's 54 offices.
    As HUD's civil rights chief, Mr. Marcus developed 
initiatives and oversaw HUD's Office of Departmental Equal 
Employment Opportunity in its section 3 program office. Before 
entering public service, Mr. Marcus served as a litigation 
partner in two law firms, where he successfully represented 
individuals who had been denied constitutional and civil 
rights. Mr. Marcus is a graduate of Williams College and the 
University of California at Berkeley School of Law. We welcome 
you here this morning, Mr. Marcus.
    And our final witness here is George Harbison. Mr. Harbison 
is the Acting Director of Budget and Finance and is the 
Director of Human Resources for the Civil Rights Commission. 
Prior to assuming these positions, he was the Director of 
Budget and Finance for the Commission for approximately the 
past 14 years, and we welcome you here, Mr. Harbison.
    It's the practice of this Committee to swear in all 
witnesses appearing before it, so if you would all please stand 
and raise your right hand.
    [Witnesses sworn.]
    Mr. Chabot. All witnesses have answered in the affirmative, 
and you can all be seated.
    We appreciate, as we said, your presence here this morning. 
I know that you have a meeting tomorrow, so we know it is 
perhaps inconvenient to do two things of such importance in 
such close proximity, so we do appreciate your presence. And as 
I know that you're aware, we have a 5-minute rule here where we 
would ask each witness to testify for up to 5 minutes. We will 
give you a little leeway beyond that if you need to wrap up. We 
have a lighting system. It will be green for 4 minutes, turn 
yellow when you have 1 minute, and then red when your 5 minutes 
is complete, and we'd ask that you please wrap up as close to 
that time as possible.
    And, Mr. Redenbaugh, you would be our first witness here 
this morning, so you are recognized for 5 minutes.

    TESTIMONY OF RUSSELL G. REDENBAUGH, COMMISSIONER, U.S. 
                   COMMISSION ON CIVIL RIGHTS

    Mr. Redenbaugh. Well, thank you, Chairman Chabot, and 
Subcommittee Members and staff. Thank you for holding this 
hearing and for inviting me here.
    As you all know, I am resigning from the Commission. What I 
would like to make clear is I'm resigning not because I object 
to the particular projects or programs that have been put 
forward, but because I object to us not making reform our 
highest and most urgent priority.
    In my private life, I advise companies on how to manage 
themselves. I've managed a half a dozen companies. And I look 
at organizations through the lens of purpose, processes, and 
people--the purpose being, you know, that mighty theme or that 
mighty objective that unifies us. The processes define how 
we're going to work together to accomplish that purpose. It 
defines the accountabilities, who will do what by when. And the 
people, and the people must work through those processes and 
share that purpose. And an organization that gets all three of 
those right can do truly remarkable things.
    At the Commission we don't have a clear purpose. We have 
agendas. As you all know, we don't have processes. We don't 
have a process for financial accountability. We don't have a 
process for accountability with respect to our projects. And 
given that we don't have the purpose or processes, the people 
can't possibly work together as a team. And, you know, we have 
never been a team.
    But there's something about the design of the organization 
and of the organization that's even more of a fatal flaw than 
any of that, and that is, this agency has defined itself as a 
special independent agency, independent of the executive 
branch, independent of the Congress, certainly independent of 
its oversight Committee, independent from GAO recommendations, 
from OMB, and independent from GPRA, in fact, even independent 
from some of the civil rights laws that we support. You can see 
this by examining some of our EEOC cases.
    And this independence, the way we've interpreted it, means 
that we can never reform ourselves because we don't have 
clients or customers.
    Now, I think tomorrow, in tomorrow's meeting, there will be 
a new enthusiasm for reform, and I suspect there will be a 
great many reform measures adopted, probably unanimously. But I 
caution that that which is adopted tomorrow can be ignored next 
month or unadopted next year.
    So if you're inclined to give this Commission yet another 
chance, my recommendation would be that you collateralize those 
promises of reform with changes in the statute that give this 
Commission the accountability that all organizations need to 
have.
    My own recommendation, though, is that you close this 
Commission and start another one. For far too long, Congress 
has felt that having a bad Civil Rights Commission was better 
than having no Civil Rights Commission. And I commend this 
Subcommittee for not accepting such a low standard. The country 
does deserve far better.
    And I'd take out a blank sheet of paper, and I'd ask you to 
do this as Congressman Conyers suggested, in a nonpartisan way, 
and ask the question: What is the purpose of the Civil Rights 
Commission today? Because when this Commission was originally 
constituents in the 1950's, its purpose was a mighty one. It 
was to be the conscience of America, and America needed a 
conscience. And through the work of many people and this 
Commission in part, that conscience manifest and produced the 
civil rights legislation that we have today.
    So the situations are very different. We still have 
discrimination and too much of it. But those of us who are 
discriminated against have many powerful remedies. We don't 
need, as one of those remedies, the weak, inconsistent, anemic, 
conflicted voice of this Commission. We deserve better. The 
country deserves better.
    And so to misquote someone who's a far better communicator 
than I am, my advice to you would be to ``End it, don't mend 
it.''
    I'll be happy to answer any of your questions, and I'd like 
to submit additional written testimony for the record, if I 
may.
    Mr. Chabot. Without objection, it will be so submitted.
    [The prepared statement of Mr. Redenbaugh follows:]
              Prepared Statement of Russell G. Redenbaugh
    Mr. Chairman, members of the Subcommittee, thank you for holding 
this hearing and for inviting me to testify today. As you know, I have 
resigned from the commission. I did this because I became convinced 
that the problem with this commission is structural and unfixable. I 
used to believe that the problem was political or based on 
personalities, but it is neither of those.
    Let me say a little bit about my background, I understand 
organizations. I've studied them for 35 years. I've written widely on 
them. I've managed several companies and have consulted many on 
organizational design. I know what it takes to produce remarkable 
results. Remarkable results are produced by patters of behavior, and 
it's the organization's structure and processes that determine those 
patterns of behavior. I know if I want to change the results in a 
company, I need to change the structure.
    In the organizational design business we use the short hand of the 
3 p's: purpose, process, people. To be a high performance organization 
you must get all 3 right. From time to time every organization needs to 
be reformed, that means a new structure and new processes. In business 
strong organizations are built by having many satisfied customers and 
in business the incentive to reform comes from defecting customers.
    Now let's talk about the civil rights commission. We don't have a 
clear purpose, we don't have clear processes, we don't have the minimal 
financial controls, and our structure is fatally flawed. Our structure 
allows us to cloak ourselves with the myth of our independence. It's 
lent some commissioners to believe that we don't have customers. Well 
if we don't have customers then we don't have any consequences for not 
reforming or any incentive to make those necessary changes.
    The commission has no clear purpose. Purpose, the first of the 3 
p's, is the glue that unifies and binds an organization together. An 
organization's purpose is what we are willing to work hard for in order 
to produce remarkable results. This commission doesn't have a clear 
purpose. The conditions that existed in this country when the 
commission was put in place have changed dramatically. This structure 
may have been the right structure for dealing with those conditions, 
which were state supported institutional racism, but the structure does 
not work for what is needed to combat discrimination and disparities 
today. Congress tweaked the structure in 1983 but adopted another 
inappropriate model. We still have much discrimination, but the 
government now runs a multibillion-dollar apparatus to protect our 
rights. Think of all the bulwarks against discrimination in the major 
federal and state agencies and all the volumes of antidiscrimination 
laws on the books. People who are discriminated against deserve these 
remedies. They don't deserve the inarticulate, confused, and conflicted 
voice of the civil rights commission.
    The commission's processes are fatally flawed and cannot be 
reformed. I do not believe that this commission will ever reform 
itself. The changes that need to be made are structural. The principle 
structural problem is the claim by some commissioners' that 
``independence'' means that we don't have customers. Another structural 
problem is that commissioners are appointed by the executive branch and 
the congress, which leaves the political accountability splintered. The 
commission is composed of an even number of commissioners; this makes 
for gridlock. Another problem is that commissioners are part-time and 
staff is full-time. Given this structure there need to be clear 
processes that prevent a staff director from hijacking the 
commissioners' agenda. These processes do not exist at the civil rights 
commission.
    ``End it, don't mend it'' I could say much more. The mismanagement, 
the corruption, the arrogance, the disregard of the statute, of GPRA, 
of OMB, and of GAO recommendations is well documented. This is an 
agency that considers itself above the law and above civil rights laws, 
just look at our EEOC record. I believed for many years that these were 
problems of politics and personalities, but as I said before I am 
completely convinced that this is a problem of structure and process. 
That we didn't move immediately to correct these institutional problems 
convinces me that we never will. I can no longer associate myself with 
an organization that is both a national and a personal embarrassment. 
To misquote a far better communicator than myself, ``End it don't mend 
it''

    Mr. Chabot. We appreciate your testimony this morning.
    Commissioner Yaki, you are recognized for 5 minutes.

           TESTIMONY OF MICHAEL YAKI, COMMISSIONER, 
                U.S. COMMISSION ON CIVIL RIGHTS

    Mr. Yaki. Thank you very much, Mr. Chair, and I want to 
thank the Chair and the Ranking Member for inviting me to 
testify today. As you know, I'm the newest member of the 
Commission, and I am actually deeply honored to have joined the 
Commission on Civil Rights last month.
    As a first matter of business, I want to thank Commissioner 
Redenbaugh for his 15 years of service. Although I disagree 
with his conclusion today, no one can deny that the 15 years of 
service to the Commission and to this country is beyond 
reproach, and I just want to thank him for all the inspiration 
that he has provided to people in this country.
    But I disagree with his conclusions because during the past 
half-century, the Civil Rights Commission has taken its 
independent fact-finding and recommendation powers seriously 
and substantively. Its 1961 report was the basis for the 
landmark 1964 Civil Rights Act. Its hearings on 
disenfranchisement of African Americans in the South led to the 
Voting Rights Act of 1965. And over time, the Commission has 
adapted to the changing face of bias and discrimination in 
America. Its 1978 Commission report on domestic violence put 
that issue on the national agenda for the first time, and its 
1983 Commission report on the challenges that Americans with 
disabilities faced led to the adoption of the Americans with 
Disabilities Act.
    Has it been perfect in how and why it addresses certain 
issues? Absolutely not. But has it provoked debate, discussion, 
and made policymakers stand up and take notice? Absolutely yes. 
And that is why I am here today. I'm here to speak on my own 
behalf as a new Commissioner, to say that while the business of 
this Committee with respect to ensuring fiscal responsibility 
and management is important, it is equally important that the 
business of the Commission be allowed to continue.
    I am unable because I am new to substantiate or deny the 
charges of financial mismanagement at the Commission. I come 
basically with a clean slate. But I can tell you as a former 
local legislator who bore responsibility for a $4 billion 
budget with 25,000 employees, this type of hearing is not 
unfamiliar to me. It is a very serious responsibility that we 
undertake to ensure that taxpayer funds are not squandered 
needlessly, especially during tough budgetary times.
    I have read the GAO reports, and I can assure you that as a 
former congressional aide and a former local legislator that no 
one takes the GAO lightly. But when faced with these 
allegations at the local level, it is important to take swift 
and corrective action, which this Committee is working to do. 
It is important to ascertain whether it is isolated or 
systemic. It is important to put in appropriate controls and to 
assure the public that we responded on their behalf.
    But equally important is to understand that the department, 
agency, or bureau in question still has a public mission to 
perform. And, therefore, it is important to ensure that any 
remedial or corrective action be carefully and narrowly 
tailored to ensure that it does not hinder the public function 
of that particular agency.
    I am not here to understate the GAO or the hearings and 
intent of this Committee. But I think it's important to put in 
relative scale that it is going to be far easier to treat the 
problems of a $9 million Commission than a multi-billion-dollar 
department. Mr. Marcus to my left has outlined a response, and 
I will be in support of these reasonable reforms that will put 
the Commission back on track fiscally and managerial. But 
consider that just last year the GAO reported that between 1997 
and 2003, the Defense Department lost more than $100 million in 
taxpayer money on unused airplane tickets. Now, let me repeat 
that. That's $100 million in airplane fares that they could 
have cashed in, and that is 10 times more than the entire 
budget of the Commission on Civil Rights.
    But just as it would not make any sense to stop the DOD 
from protecting our homeland simply because they made financial 
mistakes, albeit on a possibly mind-boggling scale to a 
taxpayer, it does not make any sense to impose actions or 
controls on the Commission that hampers its investigative and 
fact-finding functions. It is, therefore, my plea to this 
Committee that you recognize that not only must the mission of 
this Commission go on, but also recognize that the Commission 
actually needs additional resources, guarded by appropriate and 
adequate fiscal controls to continue its mission.
    In fact, it is astonishing that the Commission and staff 
have been able to do what they have done over the past few 
years, given its very low staffing and fiscal constraints.
    As an independent agency, the Commission can venture where 
Department Secretaries and administrative heads fear to tread. 
It can question the efficacy of existing Government programs, 
policies, and enforcement. The targets of discrimination, the 
tools used to discriminate have changed and evolved. But the 
fact that discrimination remains, as Commissioner Redenbaugh 
has said, cannot be seriously disputed. And thus the need for 
the Commission remains.
    As a watchdog, fact-finder, and policy conscience, there's 
much that the Commission can and will do in the future to help 
Congress and the executive branch and the general public to 
assure that there is true equal protection under the laws. And 
while I commend this Committee in protecting the taxpayer 
dollar and working to reform this Commission, this Commission 
also has its continuing duty to protect civil rights of our 
country. These goals are not mutually exclusive, and with 
mutual cooperation and assistance, we can achieve both these 
goals. And the Commission will continue, as President 
Eisenhower's Attorney General said in 1957, to continue to 
``chart a course of progress to guide us in the years ahead.''
    Thank you for your time and consideration of my views, and 
I'm available for your questions.
    [The prepared statement of Mr. Yaki follows:]

                   Prepared Statement of Michael Yaki

    I want to thank the Chair and the Ranking Member for inviting me to 
testify today. As a preliminary matter, I am deeply honored to have 
joined the Commission on Civil Rights last month. The responsibility 
first placed upon the Commission by President Eisenhower nearly fifty 
years ago is a mantle I will wear with pride. Briefly, my background 
includes having recently been a local elected legislator for the City 
and County of San Francisco for 5 years, overseeing with my colleagues 
an annual budget of over $4 billion with nearly 25,000 employees. I 
have also served as a Congressional Staff Director for the Minority 
Leader and been a practicing securities attorney after completion of my 
legal education at the Yale Law School and clerkship with California 
Court of Appeal Judge Harry Low in California. I am now practicing as a 
partner at a California-based business law firm.
    The United States Commission on Civil Rights has been called the 
``watchdog'' of civil rights for this country. Created in the 1957 
Civil Rights Act--the first meaningful, if tentative step this country 
took towards ending the Jim Crow era--it was envisioned by President 
Eisenhower as a bipartisan, fact-finding panel charged with 
investigating and making recommendations to the Executive and 
Legislative branches on how to end discrimination in this country.
    Over the past half-century, the Civil Rights Commission has taken 
its fact-finding and recommendation powers seriously and substantively. 
Its 1961 Report was considered by the Congress and the Supreme Court as 
the intellectual and factual grounding for the provisions of the 
landmark 1964 Civil Rights Act. Its hearings on the blatant, deliberate 
disenfranchisement of African Americans in southern precincts and 
parishes formed the basis of the Voting Rights Act of 1965.
    Over time, the Commission has helped America recognize the changing 
face of bias and discrimination. In 1978 a Commission Report 
challenging law enforcement agencies to recognize domestic violence as 
a crime put it on the national agenda, and by the late 1980's Congress 
mandated the Law Enforcement Assistance Administration to focus on the 
``role of the criminal justice system in preventing and controlling 
violence and abusive behavior in the home. And the Congress relied on a 
1983 Civil Rights Commission report on the challenges disabled persons 
faced in their daily lives in enacting the Americans with Disabilities 
Act.
    In the 90's and through the dawn of this new century, the 
Commission has begun tackling many other challenges, including studying 
civil rights matters facing Native Americans and Native Hawaiians and 
issuing reports to Congress detailing policy and legislative failures 
and loopholes that continue to deny equal protection under the law to 
these most ancient Americans. Has it been perfect in how and why it 
addresses certain issues? Absolutely not. Has it provoked debate, 
discussion, and made policymakers stand up and notice? Absolutely yes.
    Herbert Brownell, President Eisenhower's Attorney General, summed 
up the scope of the Commission best when he testified before this very 
Subcommittee 48 years ago this February in stating that:

        ``Above and beyond the need for improving the legal remedies 
        for dealing with specific civil rights violations is the need 
        for greater knowledge and understanding of all of the complex 
        problems involved. . . . [T]here is no agency anywhere in the 
        executive branch of the federal government with authority to 
        investigate general allegations of civil rights. . . . [T]he 
        Commission proposed by the President would present the means of 
        securing this vitally needed information.''

    The Jim Crow era may have ended, but anyone who believes that we 
have become a nation completely without malice towards people of color, 
towards new immigrants, towards those who believe or worship 
differently is, with all due respect, deliberately hiding their head in 
the proverbial sand. All we need to do is look at the incredible jump 
in hate crimes towards Arabs and Muslim Americans since 9/11; but we do 
not need to confine ourselves to the most obvious victims to know what 
is true. Neo-Nazism and anti-Semitism still exists; there remain school 
districts where inequalities remain divided by race; and minority- and 
women-owned businesses still encounter substantial hurdles to economic 
parity left over from decades of exclusion.
    And that is why I am here today. I am here to speak on my own 
behalf, as a Commissioner, to say that while the business of this 
Committee with respect to ensuring fiscal responsibility is important, 
it is equally important that the business of the Commission be allowed 
to continue.
    I am unable to substantiate or deny the charges of financial 
mismanagement at the Commission. I come, if you may, with a clean 
slate. As a former local legislator in who bore responsibility for a $4 
billion dollar city and county budget, this type of hearing is not 
unfamiliar territory. It is a deep and very serious responsibility to 
ensure that taxpayer funds are not squandered needlessly at any time, 
including and especially in pressing budgetary times.
    I have read the GAO reports and I can assure you that as a former 
congressional staffer and a former local legislator that I do not take 
any GAO report lightly.
    I can communicate to you my impression that the present Commission 
views its duty to ensure fiscal responsibility very seriously. In my 
very first meetings after being told of my appointment, both the 
Chairman and the Staff Director were very frank about their intent to 
hold the agency accountable in the ways detailed in the GAO reports. In 
my conversations with my new colleagues, the manner of fiscal 
accountability is very important.
    However, it is equally important to separate the past from the 
present and the future. Even if there was mismanagement--which I cannot 
deny nor confirm--the fact is, that these allegations are associated 
with a regime that no longer exists at the Commission. And, in the 
interests of full disclosure, I should also state that I am an admirer 
of Ms. Berry's lifelong commitment to civil rights and to minority 
communities in this country.
    But I understand the scope of this hearing. When I was faced at the 
local level with allegations of mismanagement of government resources, 
it was important to take swift corrective action. It was important to 
ascertain whether it was an isolated, or systemic problem. It was 
important to put in appropriate controls to ensure that it did not 
happen again. It was important to assure the public that we had 
responded on their behalf.
    But equally important was to understand that the department, 
agency, or bureau still had a mission to perform. Missions that were 
important to members of the public. And, therefore, it was important to 
ensure that any remedial or corrective action be carefully and narrowly 
tailored to ensure that it did not hinder the public function that all 
government agencies perform.
    It is easy to punish an entire agency, especially one as small as 
the Commission. In San Francisco, as with many cities and counties of 
size in this country, the Commission's $9 million budget would be 
dwarfed by health, public safety, and other departments. In comparison 
to the trillion dollar federal budget, $9 million may be barely 
noticed.
    Understanding the scale of the problem--and the scale of the 
solution--is paramount in this case. The cure cannot kill the patient.
    To be perfectly honest, we may go on about lack of controls. We may 
pontificate about waste of taxpayer assets. But can we honestly say 
that our concern about misspending in a $9 million dollar agency should 
outstrip concern for waste that is in the tens, or hundreds of 
millions? It is not to belittle the findings of the GAO or the hearings 
of this Committee. It is to put in relative scale, however, that it is 
far easier to treat the problems of a $9 million dollar Commission than 
a multi-billion dollar Department.
    Just last year the GAO reported that between 1997 and 2003 the 
Defense Department lost more than $100 million dollars in unused 
airplane tickets. Let me repeat that. The DoD forgot to cash in more 
than $100 million dollars in plane fares. For the average taxpayer--the 
person in whose shoes I stood as a legislator and you stand as Members 
of this esteemed House--$100 million dollars is waste on a massive 
scale.
    But the ultimate mission, the purpose of the organization must go 
on. Just as it would not make any sense to stop the Department of 
Defense from protecting our homeland, or liberating a foreign country 
from the yoke of tyranny, simply because they made financial mistakes--
in the case of airline tickets, on a truly grand and mind-boggling 
scale--it does not make any sense to impose actions or controls on the 
Civil Rights Commission that hampers its investigative and fact-finding 
functions.
    It is therefore my heartfelt plea to this Committee that you 
recognize that not only must the mission of the Commission go on, but 
also recognize that the Commission needs additional resources--guarded 
by appropriate and adequate fiscal controls--to continue its mission.
    The fact is that as a Commission, we are starved for resources. Let 
me elaborate, based again only upon my short tenure with the 
Commission.
    Our State Advisory Committees are languishing from neglect, neglect 
caused by a paucity of funding. The State Advisory Committees are one 
of the most important means of obtaining information and insight on 
civil rights issues on the ground. With the number of issues 
confronting our limited time and agendas, the SACs have produced and 
will continue to produce some of the most important civil rights 
reports for this country. Yet we have barely staffing for one or two 
professional staff responsible for multi-state jurisdictions totaling 
tens of millions in population. The SAC's can't meet because we can't 
afford to reimburse them for plane, train, and car fares--the least we 
could contribute given the volunteer time and commitment of SAC 
members. When we consider, as Justice Brandeis did, that the states are 
the ``laboratories of democracy,'' the fact that the Commission, and, 
therefore, the Executive and Legislative branches of the federal 
government are deprived of their information, experience, and input due 
to lack of funding is a loss on a truly national scale. Can we truly 
say that this programmatic and mission loss is the price we must pay 
for any past financial transgressions?
    I cannot speak for the entire Commission, but I can also say that 
it is already apparent to me that the agenda of the Commission itself 
has been affected by the constant demand for documents, the need for 
retasking already overworked employees. The fact is that attention must 
be paid to answering complaints, preparing reports, and crafting policy 
recommendations. But the reality is that critical resources must be 
diverted just to keep the bare functionality of the Commission. It is 
somewhat astonishing that the Commission and its staff have been able 
to accomplish producing reports and conducting hearings given its 
recent staffing and fiscal constraints.
    As an independent agency, the Commission can venture where 
Department Secretaries and Administrative heads fear to tread--it can 
question the efficacy of existing government programs and policies. The 
targets of discrimination, the tools used to discriminate may have 
changed or evolved. But the fact that discrimination remains cannot be 
seriously disputed. And thus the need for the Commission remains.
    I am hoping the Commission will investigate the collateral damage 
to civil rights as a result of the Patriot Act, which is up for 
reauthorization this year. The Voting Rights Act comes up for 
reauthorization in 2007, and rather than have talking heads trade 
insults on its continued vitality, we need to take a fact-based look at 
disenfranchisement issues in all communities of our country. And there 
are many issues relating to educational and economic equality for 
minorities, women and the disabled, and other communities that I 
believe still need to be addressed.
    There are issues that some Commissioners will agree with, and 
others in which we will disagree. Reasonable people can come to 
different conclusions from the same set of facts and circumstances, but 
it requires resources to access those facts and circumstances.
    I close again with the words of Herbert Brownell. In urging the 
Senate to pass the Civil Rights Act of 1957, and in specific, to pass 
Title I creating the Civil Rights Commission, he stated in a letter to 
the Senate:

        ``[W]e must find out all of the facts--the extent, the methods, 
        the result. . . . Civil rights are of primary concern to all 
        our people. To this end, the Commission's membership must be 
        truly bipartisan. . . . The Commission will have authority to 
        hold public hearing. Knowledge and understanding of every 
        element of the problem will give greater clarity and 
        perspective to one of the most difficult problems facing our 
        country. . . . Investigation and hearings will bring into 
        sharper focus the areas of responsibility of the federal 
        government and of the states under our constitutional system. 
        Through greater public understanding, therefore, the Commission 
        may chart a course of progress to guide us in the years 
        ahead.''

    As watchdog, fact-finder, and policy conscience, there is much that 
the Commission can and will do in the future to help Congress, the 
Executive Branch and the general public ensure that there is true equal 
protection under the laws of our country for all Americans. While I 
commend the zeal of this Committee in protecting Americans' tax 
dollars, this Commission also has a duty to protect the civil rights of 
our country. These goals are not mutually exclusive and with mutual 
cooperation and assistance, we can achieve both these goals. And the 
Commission will continue to chart a course of progress to guide us in 
the years ahead.
    Thank you for your time and consideration of my views. I am 
available for your questions.

    Mr. Chabot. Thank you very much, Commissioner Yaki. We 
appreciate your testimony.
    Mr. Marcus, you are recognized for 5 minutes.

        TESTIMONY OF KENNETH L. MARCUS, STAFF DIRECTOR, 
                U.S. COMMISSION ON CIVIL RIGHTS

    Mr. Marcus. Thank you, Mr. Chairman, Mr. Ranking Minority 
Member. I am also delighted to have an opportunity to address 
you today, and I am also saddened that this will be one of my 
last opportunities to work with Commissioner Redenbaugh, whose 
departure I am sad to acknowledge. On the other hand, we are 
certainly delighted to have Commissioner Yaki now on board to 
join us.
    Many have found fault with the Commission's management and 
finances, and I certainly join in acknowledging that there are 
many, many respects in which the Commission requires very 
substantial systematic reform. I would like to emphasize, 
though, by way of preface that this agency has over a period of 
nearly 50 years had extraordinary accomplishments in bringing 
public attention to matters which otherwise in many instances 
would not have received attention. In all of the 50 States and 
at a national level, the U.S. Commission on Civil Rights has 
countless times over the decades reminded us of our basic 
obligations under the Constitution and laws of the United 
States.
    At the same time, the present is a very difficult time for 
the Commission on Civil Rights. Those of us who are new to the 
Commission have inherited an agency in crisis with profound 
management and financial challenges as well as challenges 
regarding project planning that we must face in short order. 
Many of the challenges have been well documented over a period 
of years by the Government Accountability Office in the reports 
to which the Chairman made reference earlier this morning. 
These challenges include weak internal financial and project 
planning controls as well as an unsustainable budgetary 
situation.
    At the same time, we have a committed staff which is 
working very hard under difficult circumstances based on their 
commitment to civil rights and their belief that it is 
important that they work as hard as they can, even under these 
uncertainties, to try and protect those who would otherwise 
face discrimination, hatred, and injustice.
    The GAO reports which have been referenced have described a 
lack of good project management and transparency in contracting 
procedures and elsewhere, have referred to weaknesses in the 
way in which resources have been used, have described a lack of 
strategic planning, and have in general painted a portrait of 
an agency that has had little financial control, weak 
management, and little accountability.
    Those reports go to a period of time at which I was, of 
course, not present at the agency, and I cannot speak to things 
that happened before I was here. What I can say is that it is 
clear to me, as to the Commissioners, that fundamental changes 
do need to be made, need to be made deliberately, need to be 
made thoughtfully, and need to be made quickly.
    We have already in a short 3 months begun to tackle the 
task of solving the problems that developed over a period of 
years and even decades. But it is a process that will take some 
time, both because the problems are difficult and also because 
the body is, of course, a deliberative one which works as a 
panel.
    Some of the changes that we have looked at and even 
instituted involve implementation of GAO recommendations. For 
instance, we have already implemented or issued directives to 
implement over 20 of the recommendations that GAO has made, 
even within the first couple of months. It is certainly my 
highest priority to reform the management and financial 
structure of the Commission starting with those challenges 
which have been identified by the GAO and the Office of 
Personnel Management, and I think that we have at least made a 
step forward in addressing those.
    Commissioner Redenbaugh also indicated that there are other 
reforms which have been discussed and may be raised during the 
meeting tomorrow. The Commission, as one of its very first 
acts, established a working group on reform to address internal 
and external communication matters and project planning. 
Commissioner Redenbaugh has chaired the meetings of that body, 
and I expect that through the working group on reform there 
will be additional substantial reforms that are recommended to 
the full Commission, which I hope will address many of the 
concerns that have been raised today.
    In general, I would say that the challenges that we have in 
terms of our internal structure are very serious ones, but 
there is a very strong commitment by the Commissioners that I 
share to acknowledging those problems, identifying them, and 
solving them deliberately but quickly.
    In addition to the structural problems, we also, of course, 
have very serious budgetary constraints within this fiscal 
year. We had been spending money at a pace which is 
unsustainable within our current appropriations. In fact, as of 
the time that I arrived, we were spending money at a pace which 
would exhaust our budget far before the end of the fiscal year. 
So our most urgent concern is to establish cost-cutting 
constraints to make sure that we live within our budget. Beyond 
that, we are very highly focused on establishing reforms to 
make sure that we are functioning properly as an agency not 
only because it's required by law and by the GAO 
recommendations, but also because our commitment is to ensuring 
that this agency is able managerially and financially to 
achieve its mission.
    We all believe that the mission of this agency is vitally 
important, and I am dedicated to ensuring that we have the 
level of management necessary in order to meet that mission.
    I thank you for the opportunity to speak and, of course, 
will be available to answer questions.
    [The prepared statement of Mr. Marcus follows:]

                Prepared Statement of Kenneth L. Marcus

    Thank you, Mr. Chairman. I am Kenneth L. Marcus, and I have served 
as Staff Director of the United States Commission on Civil Rights since 
mid-December 2004. The Commission is an independent bipartisan agency 
established by Congress in 1957 to investigate complaints alleging that 
citizens are being deprived of their right to vote for reason of their 
race, color, religion, sex, age, disability, or national origin, or by 
reason of fraudulent practices; to study and collect information 
relating to discrimination or a denial of equal protection of the laws 
under the Constitution because of the same bases; to appraise federal 
laws and policies with respect to discrimination or denial of equal 
protection of the laws because of the same bases; to serve as a 
national clearinghouse for information in respect to discrimination or 
denial of equal protection of the laws because of the same bases; to 
submit reports, findings, and recommendations to the President and 
Congress; and to issue public service announcements to discourage 
discrimination or denial of equal protection of the laws. The 
Commission has been called the ``conscience of the Nation'' on civil 
rights matters, and our recommendations to Congress have often led to 
the enactment of critical legislation.
    I would like to preface my remarks today by thanking the Chairman 
and the Subcommittee for the opportunity to address today the 
challenges we face as an agency and the internal reforms we are 
implementing at the Commission. As you are certainly aware, the 
Commission has some extraordinary organizational and financial 
challenges to address.

                           CURRENT CHALLENGES

    Those of us who are new to the Commission have inherited an agency 
in crisis, with profound management and financial challenges that we 
must face in short order. Many of these challenges have been well 
documented, over a period of years, by the Government Accountability 
Office, the Office of Personnel Management, and other entities. The 
challenges include weak internal, financial and project planning 
controls, as well as an unsustainable budgetary situation. These 
challenges pose a need for serious and significant reform. The GAO has 
issued three reports on the Commission since 1997 that bring a number 
of problem areas into focus--most notably management, financial 
accountability, and the quality and integrity of Commission projects.
    The July 1997 GAO report, U.S. Commission on Civil Rights: Agency 
Lacks Basis Management Controls (GAO/HEHS-97-125), found broad 
management problems at the Commission, including limited awareness of 
how its resources were used. The GAO used blunt language to describe 
the status of this agency announcing, ``the Commission appears to be an 
agency in disarray with limited awareness of how its resources are 
used.'' At the time, the GAO reported that the Commission could not 
provide key cost information for its regional offices, complaints 
referral process, clearinghouse, public service announcements, and at 
least one project. It also reported that the Commission had not 
established accountability for resources and did not maintain 
appropriate documentation of agency operations.
    An October 2003 GAO report, U.S. Commission on Civil Rights: More 
Operational and Financial Oversight Needed (GAO-04-18), found that the 
Commission lacked good project management and transparency in its 
contracting procedures. This report also found that the Commission had 
made a number of management improvements, including establishing 
policies that clarify the roles of senior management, preparing more 
detailed budget information for better fiscal administration, and 
instituting various project management procedures to meet target 
deadlines, since the GAO's last report in 1997.
    The October 2004 GAO report, U.S. Commission on Civil Rights: 
Management Could Benefit From Improved Strategic Planning and Increased 
Oversight (GAO-05-77), found that the Commission had not fully complied 
with the requirements of the Government Performance and Results Act 
(GPRA). For example, the report had found that the Commission had not 
updated or revised its strategic plan since 1997. This report 
recommended improved strategic planning and increased oversight.
    In general, the GAO's reports paint a portrait of an agency that 
was run out of control with little financial control, weak management, 
and little accountability. They are a wake-up call for this agency that 
we must implement substantial change and reform in order to meet our 
fiscal responsibilities and to restore public trust and confidence in 
us as ``the conscience of the Nation'' on civil rights.
    When I arrived at the Commission in December 2004, I found little 
that was inconsistent with the GAO's highly critical assessment. The 
Treasury Department's Bureau of Public Debt previously provided 
accounting services to the Commission, but terminated its relationship 
with the Commission effective fiscal year 2004, citing concerns 
regarding the agency's financial responsibility.
    A September 9, 2003 letter from the Department of Treasury to my 
predecessor, the Honorable Leslie Jin, provided to me by the Department 
of Treasury, reads in part as follows:

        As an accounting service provider, we are assuming a high level 
        of responsibility for management and control of federal 
        government resources. To effectively perform our services, we 
        must rely upon a strong system of internal controls, which 
        includes prudent oversight and management of budgetary 
        resources by our customer agencies . . . Based upon our 
        experience in servicing your agency, we believe there is 
        inadequate management and control oversight of your agency's 
        funds.

    At the time, the Department of the Treasury was particularly 
concerned about the Commission's over obligation of its fiscal year 
2003 budget authority and its failure to take adequate corrective 
action to avoid violating the Anti-Deficiency Act. In short, the 
Commission's financial controls had deteriorated to the point last 
fiscal year that another agency of the federal government refused to 
continue to service its account.
    My predecessor was forced to seek a new accounting services 
provider in the midst of these challenges. The agency entered into an 
agreement with Booth Management Corporation in the middle of the fiscal 
year. That contractor is a small company seriously challenged by the 
difficulties of entering into a relationship in the midst of a fiscal 
year. Compounding this difficulty is the limited experience that it has 
with providing full service accounting to a federal agency and the 
difficult relationship that it had developed with Commission staff and 
other contractors.
    Additionally, the Commission had not had an independent audit of 
its books for many years. The agency now finally is currently in the 
process of obtaining its first independent audit. The Parker, Whitfield 
firm is conducting the limited scope audit of the agency's balance 
sheet. Mr. Ernest Parker of the Parker, Whitfield firm has taken charge 
of the audit personally. This audit, originally scheduled for 
completion within a three to four-week time frame, is now in its fourth 
month, and his firm is not able to predict the length of time required 
to conclude the audit. Mr. Parker has attributed this difficulty in 
completing the audit to the Commission's failure to be forthcoming with 
financial records prior to my arrival. He has not leveled this charge 
specifically at any employee of the Commission but to at least one 
outside firm working on behalf of the Commission. More troubling, this 
independent audit informed me that, as of fall 2004, the Commission's 
financial records were in such disarray that it had no financial ledger 
whatsoever. This has since been remedied, but many other accounting 
practices are difficult or impossible to reform during the middle of a 
fiscal year.
    As a result of the lack of accountability and transparency, the 
financial condition of the agency has been a substantial challenge for 
quite some time. The Commission's current budget for fiscal year 2005 
is $9,023,232. This is essentially unchanged from the prior fiscal year 
and has been held flat now for many years. At the same time, our 
primary expenses, specifically salaries and benefits, have continued to 
rise. Moreover, we are saddled with various expenses incurred during 
prior fiscal years but not yet paid. For example, the Commission's 
prior management deferred payment of approximately $75,000 for 2004 
rent, which we must pay this year. Similarly, we are now obligated this 
year to pay approximately $188,000 in equal employment opportunity 
claims against the Commission's former management out of $355,000 in 
civil rights claims resolved against or settled by prior management 
over the last five years. As of my arrival, the spending plans and 
assumptions of the Commission placed the agency on course to overspend 
its appropriations by a considerable sum. We are now working on cost-
cutting measures to close this gap and provide us with a sufficient 
cushion against unexpected costs that we can assure that we are living 
within our means.

                            CURRENT REFORMS

Administrative Instructions Addressing Integrity and Accountability
    The Commission has begun to implement many reforms to strengthen 
accountability and transparency at the Commission, as well as address 
GAO recommendations in those areas. In my short time at the Commission, 
I have already issued three administrative instructions (AIs) that 
begin the long process of curing the substantial deficiencies at the 
Commission.
    These administrative instructions--AI's 3-15, 3-16 and 4-21, all 
issued on March 11, 2005--implemented 29 GAO recommendations with 
respect to financial accounting and expense tracking, with AI 3-16 
alone implementing approximately 21 of those 29.
    AI 3-15 establishes guidelines to ensure that the Commission 
recognizes payroll expenses in the proper period for accounting 
purposes. Specifically, AI 3-15:

        <bullet>  Asks Commissioners to submit timesheets to the 
        Commission tracking their billable hours, either on a once-per-
        pay-period or monthly basis;

        <bullet>  Provides for submission of the timesheets to the 
        Office of the Staff Director for signature in a timely fashion 
        and eventual submission of the signed timesheet to the Human 
        Resources Division; and

        <bullet>  Requires the Executive Secretary for the Staff 
        Director to follow up on Commissioners' timesheets that have 
        not yet been received by the second Thursday of a pay period.

    AI 3-16 embraces a wide variety of reforms to ensure that non-
salary expenditures have proper authorization, approval, and supporting 
documentation. Among other things, these reforms direct the Chief of 
the Budget and Finance Division to:

        <bullet>  Periodically review accounts to identify unusual 
        balances;

        <bullet>  Keep appropriate documentation in transaction files 
        to support accounting entries made to adjust or write off 
        assets and liabilities;

        <bullet>  Retain sufficient evidence in transaction files to 
        show that all transactions have been properly approved for 
        payment;

        <bullet>  Prepare purchase authorizations in advance of the 
        expenditure to be approved;

        <bullet>  Have evidence of receipt of goods and services prior 
        to approving transactions of payment;

        <bullet>  Provide travel vouchers and ensure that travelers 
        provide documentation to indicate the trip was taken; and

        <bullet>  Require that all financial transactions be properly 
        approved and supported before being processed.

This particular administrative instruction implements approximately 21 
of the GAO's recommendations.
    AI 4-21 directs the Chief of the Administrative Services and 
Clearinghouse Division to:

        <bullet>  Prepare and maintain contract files to document the 
        basis for Commission decisions in acquiring good and services;

        <bullet>  Ensure that all statements of work contain a 
        provision on organizational conflict of interest;

        <bullet>  Provide training to appropriate employees on federal 
        procurement rules, regulations, procedures, and issues;

        <bullet>  Require that all aspects of the Commission's 
        procurement be documented in accordance with Federal 
        Acquisition Regulations; and

        <bullet>  Report fiscal year procurement data for fiscal years 
        2003 through 2005 into the Federal Procurement Data Center and, 
        going forward, to report such data annually into the Center.

These are the first in what will be a lengthy series of reforms that we 
will adopt in order to ensure that the Commission complies with all 
legal requirements and that its management is sound. Between now and 
February 2006, we plan to implement GAO's pending recommendations and 
to establish significantly stronger internal controls and project 
planning procedures.

                               CONCLUSION

    The U.S. Commission on Civil Rights has an illustrious history and 
a deeply important mission. As we approach the vital task of reform, 
our challenge is to establish the controls that are necessary to ensure 
the success of our mission. It is important that we carry out this 
mission with a high degree of integrity in order to ensure public 
confidence and trust in the Commission as ``the conscience of the 
Nation'' on civil rights matters.
    I would be happy to answer any questions you may have.

    Mr. Chabot. Thank you very much. We appreciate your 
testimony.
    [The Subcommittee proceeded to other business, to reconvene 
at the conclusion of that business.]
    Mr. Chabot. At this time we will go back into our hearing 
relative to the Civil Rights Commission, and Mr. Harbison, you 
are recognized for 5 minutes.

TESTIMONY OF GEORGE HARBISON, DIRECTOR OF HUMAN RESOURCES, AND 
 ACTING CHIEF OF BUDGET AND FINANCE, U.S. COMMISSION ON CIVIL 
                             RIGHTS

    Mr. Harbison. Mr. Chairman, honorable Members of the 
Subcommittee, good morning. My name is George Harbison, and I 
appear here today in acceptance of your invitation to express 
my thoughts relative to the fiscal and management practices of 
the United States Commission on Civil Rights. I have 
approximately 30 years of service in the Federal sector in the 
areas of financial management. From 1989 to 2005, I served with 
the Commission on Civil Rights as Chief of the Budget and 
Finance Division. Since February of 2005, I am currently 
serving as the Director of Human Resources and Acting Director 
of Budget and Finance.
    During this time span, this 30-year time span, I also 
served----
    Mr. Watt. Mr. Chairman, we are having a little trouble 
hearing him, if he could pull his----
    Mr. Chabot. Could you pull the mike a little bit closer, 
Mr. Harbison? Thank you very much.
    Mr. Watt. Thank you so much.
    Mr. Harbison. During the 30-year career that I've had so 
far, I've also held other positions to include auditor, senior 
auditor, audit manager, and acting chief of an area audit 
office.
    Upon my arrival here at the Commission, the Budget and 
Finance Division consisted roughly of four professional staff. 
This staff was responsible for managing the day-to-day fiscal 
activities of the Commission, and more specifically the 
division prepared, presented, justified, and executed the 
annual budgets of the Commission. We ensured preparation of 
required financial reports. We prepared ad hoc reports 
necessary for internal financial management. We implemented 
procedures as required by the Office of Management and Budget, 
the Department of Treasury, General Services Administration, 
and other agencies relative to financial management. We 
received certified payment and monitored invoice payments. We 
received certified and monitored travel for the Commission on 
Civil Rights. We ensured the establishment of a system of 
accounts compliant with Federal guidelines to account for all 
Commission expenditures.
    I also served as security officer to safeguard individual 
privacy and agency financial information. At the same time I 
was serving as Commission liaison to Federal and private sector 
industries in matters related to finance and budget.
    During the same period of time, from the period 1989 to 
2005, staffing within the division dwindled from four to three 
in 1989, from three to two in 2001, and from two to one in 
2005, and currently consists of one individual, who is me, in 
fact, for 2005.
    With regards to the fiscal practices, the Commission on 
Civil Rights uses a centralized budgeting concept, meaning that 
essentially while budgeting, reporting, and monitoring of 
expenditures are done internally at the individual cost center 
level, control of the budget has rested with the Office of 
Staff Director, where all expenditures are approved, 
contractual arrangements negotiated, contractual contracting 
officer responsibilities are handled, contractor invoices are 
received, and contractor payments certified.
    When the Commission changed the accounting service 
providers in fiscal year 2004, much of the accounting and 
reporting and monitoring functions previously done by the 
Budget and Finance Division were accomplished by a new 
contractor. This contractor also reported directly to the 
Office of the Staff Director. In essence, the Budget and 
Finance Division essentially became an instrument for 
processing travel documents, agenda payments, and related 
documents, and to answer questions related to these various 
issues.
    Issues related to contractor performance and most liaison 
functions were handled by the Office of the Staff Director. As 
a result, the historical knowledge base relative to contractor 
performance rested with the Office of the Staff Director as 
well. The downside to a centralized budget is that it limits 
accountability of office heads to be responsible for the 
operation of their programs.
    May I continue?
    Mr. Chabot. Yes. Could you wrap up, though? Because your 5 
minutes are up.
    Mr. Harbison. In summary, the Commission on Civil Rights is 
a viable organization, and while no one has specifically 
questioned my professional qualifications, I would say that 30 
years' background in fiscal management as well as auditing 
multi-billion-dollar contracts and multi-system weapons system 
well establishes my qualifications and credentials.
    I think that, in summary, the Commission can best move 
forward through a systematic process of planning, obtaining 
human capital, inclusion of all stakeholders in its 
decisionmaking processes, and being provided with sufficient 
fiscal resources, i.e., money, to get the job done.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Mr. Harbison was not available 
at the time of the hearing but is printed in the Appendix.]
    Mr. Chabot. Thank you, Mr. Harbison.
    Members of the panel now have 5 minutes each to ask 
questions, and I recognize myself for 5 minutes for that 
purpose.
    Mr. Marcus, if I could start with you, as you know, I had 
an opportunity to stop down and visit your headquarters this 
past week, and you were kind enough to take me around the 
office and introduce me to some folks and see the space that is 
occupied. And as you know, a fair amount of the appropriations 
that your office receives is for rent, and one of the things 
that we had discussed was the three floors that you're on. And 
there are a fair number of, a pretty significant number of 
empty offices in there because of staff turnover and reductions 
of staff and for various reasons. And the actual layout of the 
office itself is probably not terribly efficient. And I would 
be interested to know what plans you have for maybe formulating 
for being more efficient in that area. And would you agree 
there's a considerable amount of waste in so much vacancy 
within the area?
    Mr. Marcus. Yes, Mr. Chairman, I would agree, and let me 
say we were delighted to welcome you, and it was very good to 
see the Chairman of the Subcommittee actually coming over and 
being interested enough to look in detail at the facility and 
what's going on at the Commission. So I was delighted by your 
interest.
    One of the first things that occurred to me as I took the 
position, looking around the agency, is that when I looked at 
the offices of the Congressional Affairs Unit and saw that we 
had offices but no staff, when I looked at the offices of the 
Public Affairs Unit, we have offices but no staff; similarly 
for many other parts of the organization. Our staffing has 
dwindled to the point that some of our divisions or 
subdivisions are entirely empty of staff, and yet we are paying 
rent both at headquarters and in some of our regions for space 
that is not being used or not being used as efficiently as we 
could. I think we need to change that.
    Now, one of the ironies that we have in terms of fiscal 
management is that when we make a move, we have immediate costs 
during the current fiscal year; the savings, of course, will be 
appreciated in future years. For fiscal year 2005, I don't 
believe that we can afford to make any moves right now because 
the costs would exceed our ability to pay. But I do think that 
at least with headquarters, we will need in the next fiscal 
year to seriously look at either consolidation of offices 
within our current space or, alternatively, with occupying a 
different space which is more appropriate to our staff size.
    Mr. Chabot. You also have, for lack of a better term, 
satellite offices around the country, and you have five--
actually, six, counting one that's within the same plan here in 
Washington.
    Mr. Marcus. Yes, Mr. Chairman, that's exactly right.
    Mr. Chabot. And do you have any thoughts relative to that, 
as to whether that's necessary or is an area that should be 
looked into as to the necessity for that many branches and 
whether or not it might be easier to occupy the folks in one 
location?
    Mr. Marcus. The number of offices that we have had has 
expanded and contracted over the years. There have been times 
where we have had as few as three regional offices and times 
where we have had many more offices than we currently have.
    The main work of our regional offices is to work closely 
with the State advisory committees in each of the States to 
enable them to be the eyes and ears of the Commission. They 
prepare reports and analyses that are close to the ground, as 
it were, in States around the country.
    That work is mandated by our statute, and it does have to 
be done. There is no legal reason why we need to have field 
offices, and certainly no reason why we need to have the number 
of offices that we have now.
    Mr. Chabot. And you're, for example, paying rent at those 
various locations and----
    Mr. Marcus. We are paying rent at those locations, and so 
as we make difficult decisions regarding how we can live within 
our financial means, even in the very short term, of course, we 
will have to ask questions about whether we can continue to 
afford the number of offices that we have now.
    Mr. Chabot. Okay. Thank you.
    Mr. Redenbaugh, let me shift over to you, if I can. Again, 
I want to say that, you know, we were disappointed to hear 
about your resignation, and we're very grateful to the 15 years 
that you put in at the Commission. We really appreciate it, and 
we've heard many good things about you in particular.
    I know you've tried to propose a number of reforms and met 
with some opposition. Could you describe for us why you think 
there is opposition to some of the common-sense financial and 
managerial reforms that you proposed? And what type of reforms 
did you propose that were rejected?
    Mr. Redenbaugh. Well, the more recent round of reforms were 
proposed by Commissioner Kirsanow and myself, and they really 
went to the--I think five areas, perhaps four: the need for a 
full audit, the need for an Inspector General, a change in the 
way we do our program policies is another area. But I think 
that what I came to realize--and I'm a little bit embarrassed 
to admit it took me 15 years to figure this out--that the 
problem of the Commission is not a problem of partisanship or 
personalities. It's a problem of accountability, and no 
organization will ever reform itself voluntarily. It is just 
far too painful to do that. You know, organizations that lose 
customers or lose clients are compelled to change. The 
structure of incentives works that way. But an agency that has 
no customers and is so independent exempts itself from the 
necessity of reform. And I think it doesn't matter who the 
people are or their ideology. It's the nature of human beings 
to resist change.
    Mr. Chabot. Thank you. My time has expired.
    The gentleman from New York, Mr. Nadler, is recognized for 
5 minutes.
    Mr. Nadler. Thank you. I'd like to continue this line of 
questions to Commissioner Redenbaugh for a couple of minutes.
    Yes, people resist change. That's human nature, except for 
certain individuals. Most people resist change. But when you 
get a Commission even without customers and so forth and 
wholesale change in who the Commissioners are, for the new 
Commissioners that's not change. They come in. They want to 
clean house, et cetera. So why do you think that that can't 
happen?
    Mr. Redenbaugh. You mean why do I think it hasn't been 
happening?
    Mr. Nadler. Well, recently there's been a rather wholesale 
change in the Commission membership, a change in orientation, a 
change in--why do you think that that new Commission membership 
is unamenable to the kind of change you think is necessary?
    Mr. Redenbaugh. Well, you know, actually I don't know that 
the newest Commissioners are not amenable to that, and I 
suspect perhaps that they are. It's some of my longer-standing 
colleagues that have been reluctant, but I suspect they will 
now be more enthusiastic about that.
    Mr. Nadler. So why do you think it is impossible to reform 
the Commission, as you stated, the new Commission--the current 
one is impossible?
    Mr. Redenbaugh. Because anything we do to adopt motions 
tomorrow, for example, can be ignored next month or, as I said, 
unadopted next year. That's a change but not a difference.
    Mr. Nadler. But what I don't understand is--yes, that is 
possible, obviously. Anybody can do something today and ignore 
it next month.
    Mr. Redenbaugh. Right.
    Mr. Nadler. But you said, I think, in your testimony that 
you think it is necessary to have a Civil Rights Commission, 
you'd like to start over again.
    Mr. Redenbaugh. Yes.
    Mr. Nadler. Okay. I don't understand how--let's assume you 
abolish this Commission and set up a new one. How do we set it 
up differently so it wouldn't have the same problems as opposed 
to simply making a change in who the Commissioners are to 
change it in any event? I don't understand the difference 
there. In other words, what would change? Why would one method 
work and not what has just been----
    Mr. Redenbaugh. Well, I think you'd want to do three things 
differently: have a clear purpose that was really understood, 
specify the processes by which people would work and the 
accountability, and that then would attract people who shared 
that purpose and would work through those processes.
    Mr. Nadler. You're saying that the statutory purpose is not 
sufficient or is not clear enough?
    Mr. Redenbaugh. I think it's not clear enough, and I think 
the line of accountability and responsibility is very unclear.
    Mr. Nadler. All right. But lines of responsibility and 
accountability can be changed without a statutory change. That 
can be changed within an existing Commission by the 
Commissioners if they want to. What you're really saying is 
that what is fundamentally wrong with the current Commission is 
that the statutory purpose is not sufficient.
    Mr. Redenbaugh. I think the statutory purpose is not 
sufficient and the line of authority to Congress is not 
sufficient.
    Mr. Nadler. Okay. Thank you very much.
    Mr. Harbison, there's been a lot of criticism of the 
Commission for lack of financial controls, accountability, and 
so forth. You've heard all that. You stated that as the person 
in charge of the department in charge of finances, your staff 
has gone from three to zero, that is, from four to one, you 
being the one.
    Is that--do you think that it would be fair to say that the 
problems with financing are because there's essentially no 
financing staff? Or was financing staff reduced because the 
financing function was parceled out to somebody else? I mean, 
which is first? What do you think is the problem?
    Mr. Harbison. I think the problem, or at least a semblance 
of the problem, you've hit on both. You can't run a division 
without fiscal resources, without the people resources. You 
cannot do that. It's just too much. Even with three staff on--
three people on staff, we were working 14-, 15-hour days, and 
on Saturdays and Sundays.
    Mr. Nadler. Let me ask you a different question because my 
time is going to run out. When you had that full staff of four 
people prior to whenever you said it changed, would it be fair 
to say that there were no--that there were not greatly 
expressed concerns about financial accountability and 
practices? Did these problems or the perception of these 
problems arise after the staff was decimated?
    Mr. Harbison. I would say that is correct. However, in the 
same breath, I would say that we have always been concerned 
with fiscal management.
    Mr. Nadler. Physical or fiscal?
    Mr. Harbison. Fiscal management. We are very much aware of 
the interest that Congress and the various Subcommittees have 
taken in the Commission on Civil Rights. So many of the 
things----
    Mr. Nadler. No, no, but let me just, if I may for one 
further moment. I hope and I presume that the department of 
fiscal affairs, or whatever the title is, would be very 
concerned with fiscal affairs. My question is: Do you think 
that--and do you think--do you think that it is true that and 
do you think it is perceived from the outside that prior to the 
great reduction in staff that you had the fiscal affairs 
relatively well in hand and that--and, in effect, what I'm 
asking, I suppose, is: Did the problems or the perceived 
problems arise because there was no longer an adequate staff to 
handle it? Or was there some other problem?
    Mr. Harbison. Yes.
    Mr. Nadler. Yes to the first?
    Mr. Harbison. Yes.
    Mr. Nadler. Okay. Thank you very much.
    Mr. Chabot. The gentleman's time has expired.
    Okay. The gentleman from Arizona, Mr. Franks, is recognized 
for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman. And thank you, 
gentlemen, for coming before the Committee.
    Commissioner Redenbaugh, I know that, you know, this is 
kind of a unique day for you in that it perhaps it may be the 
last time you will speak before the Congress as the member of 
the Commission, and certainly many of us are very disappointed 
in your resignation and appreciate your efforts to try to 
reform the Commission. And I guess with 15 years of 
perspective, sometimes, you know, we like to just say to a 
person like that, if you were emperor for a day, what are the 
changes that you would make? And I know you've stated in your 
testimony that the Commission should be shut down and perhaps 
restarted. But if you had the opportunity to rewrite the 
statutory mission of this Commission and to rewrite or 
restructure it entirely and to be the one to suggest what the 
funding of the Commission should be, how would you as emperor 
for the day fix this thing?
    Mr. Redenbaugh. You know, that is a very large and 
important question, and I don't think I can do it justice in 
the time we have. I'd be happy to continue the discussion with 
you later. I think that's the right question: How would you--if 
you didn't have this one, how would you create the right one? 
And I'd be happy to continue later with that.
    Mr. Franks. All right. Well, perhaps I could try to narrow 
it just a little bit. If you could make just one change--
sometimes, you know, we get so caught up in the inertia of an 
organization, especially with new members and the changes in 
personnel, and, of course, pressures from the outside and the 
inside. If you could just make one critical change to the 
Commission that you think would give it the best chance of 
fulfilling its ostensible purpose, what would that one change 
be?
    Mr. Redenbaugh. Rethink the purpose and have the purpose be 
endorsed and shared by the eight Commissioners.
    Mr. Franks. And not to be insistent here, but if you were 
to write--or just to say what you think the purpose should be, 
how would Commissioner Redenbaugh write that purpose?
    Mr. Redenbaugh. Well, rather than what I think it should 
be, it needs to be generated by the sitting Commissioners.
    Mr. Franks. You think that the sitting Commissioners should 
just come together and find some sort of new collective 
approach or new collective mission that they could all buy into 
and that somehow that would create the continuity and the 
commonality among the members that would help it go forward 
in----
    Mr. Redenbaugh. If you're limiting me to one thing, that's 
the one thing, because Staff Director Marcus is a good manager. 
He does know how to put those processes in place. But in the 
absence of a clear and shared purpose, it'll be difficult.
    Mr. Franks. That's always one of the great challenges in 
life, is to not know what you want and breaking your neck to 
get it. But thank you, Mr. Commissioner, and thank you all.
    Mr. Chabot. Does the gentleman yield his time back?
    Mr. Franks. Yes, I do.
    Mr. Chabot. Okay. Thank you. The gentleman's time has 
expired.
    It's my understanding that the gentleman from North 
Carolina, Mr. Watt, has to go to another Committee, so Mr. 
Conyers is okay with calling on Mr. Watt next. So we will do 
so. The gentleman is recognized.
    Mr. Watt. Thank you, Mr. Chairman. Actually, I just had my 
staff person tell me that they're about to shortly take up the 
Congressional Black Caucus' budget on the floor, so I would 
just say that the questions that have been directed to Mr. 
Marcus and Mr. Harbison, while critically important from a 
management perspective, I would not even go into the 
micromanagement at that level about whether you've got too much 
office space or, you know, those kinds of things.
    I think the more important questions really are the ones 
that have been pursued by my colleague who just got through 
asking questions, and that's the important debate--and I'm not 
sure it's a debate--between Commissioner Redenbaugh and 
Commissioner Yaki, both of whom, it seems to me, agree that 
there needs to be something, whether it's the existing Civil 
Rights Commission or some successor to the Civil Rights 
Commission with a different portfolio structure mechanism.
    And I think we probably benefit more from allowing and 
asking Commissioner Redenbaugh and Commissioner Yaki to give us 
their vision. I'm not sure that we have the luxury of saying to 
the Commission you can write your own charter, because the 
Commission was a creation of the Congress and the executive 
branch at some point. And Commissioners don't sit down and 
decide what they are going to do. There is a mission here, and 
I think what has happened with this Civil Rights Commission and 
predecessor Civil Rights Commissions, whatever their 
composition, is much of what has happened in this Congress.
    We've got a wonderful purpose. We have some wonderful 
people. But the processes have just--you know, and we had--we 
could sit here and blame the Commission for that, but we had a 
tremendous meltdown in our process just yesterday in this very 
Judiciary Committee, where we sat from 10 o'clock in the 
morning until 5:30 yesterday afternoon going through a charade. 
That doesn't mean that we should do away with the Judiciary 
Committee. We have meltdowns in the processes of the House that 
deprive us of being able to participate effectively in the 
democratic process. It doesn't mean we ought to do away with 
the House. The purpose, the democratic purpose of the House is 
one that people around the world fight, die, and, you know, 
bleed for. But the processes have fallen prey to partisan 
divides and philosophical divides that have made it impossible 
for us to talk to each other and honor the processes that 
should be in place to facilitate our talking to each other.
    And so I'm hopeful as a result of this we won't get so tied 
up on what document we are subpoenaing and whether we got too 
much office space or, you know, whether this comma or that 
period fits in the right place. I hope we can spend some time 
focusing on this broader debate that Commissioner Yaki and 
Commissioner Redenbaugh have opened for us, and if we do a 
better job in this Committee of creating a bipartisan 
perspective on the mission and purpose of the Civil Rights 
Commission, I suspect that the Civil Rights Commission can do a 
better job of playing out what that mission is.
    And while I'm disappointed that the Commission has reached 
this fork in the road, I'm no more disappointed about that and 
the $8 million that we have at risk there and at stake there 
than I am disappointed about our own failings in our own 
institution here, where we have much, much, much more 
financially and philosophically and image-wise at risk.
    So, with that, Mr. Chairman, I will yield back.
    Mr. Chabot. Thank you. The gentleman yields back, and I 
think the gentleman makes some very good points, and I would 
agree that we should spend time looking at the overall picture.
    I do believe that looking at how resources are being 
allocated, including office space, and the money that's being 
spent there when it could be perhaps better spent toward 
working toward improving civil rights in this country is 
important as well.
    [Whereupon, at 10:31 a.m, the Subcommittee proceeded to 
other business, and reconvened at 10:48 a.m.]
    Mr. Chabot. Again, we apologize for any inconvenience on 
having markups, but we have to do it while we have sufficient 
Members here to actually record the vote.
    The gentleman from Iowa, Mr. King, is recognized for 5 
minutes.
    Mr. King. I thank the Chairman and the panel for their 
testimony this morning.
    Just to make a few remarks to Mr. Redenbaugh with regard to 
your testimony, I would tell you, Commissioner, that I was 
impressed with your testimony. It was concise, it was emphatic, 
it was clear, it showed conviction, and it was without notes. 
And all of those things add up to tell me that this is 
something, a decision and an opinion that you've come to after 
long deliberation and long service to your country. And I 
appreciate the brief recommendations that you have made with 
regard to how the Commission might be reformed into an 
effective body. And I wanted to make sure that that observation 
is on the record, but I'd like to direct my questions to Mr. 
Marcus, at least in the interim here.
    That is, Mr. Marcus, I know you haven't been on task here 
very long, just a few months, and yet you walked into an 
environment that was a fiscal and policy mess, I think it's 
clear from this testimony and much documentation. And we 
apparently are not going to have access to the financial 
records up to that point that you stepped into this, so I would 
ask you: Have you prepared--I'm not going to ask you what steps 
you've taken because you said you've taken some of the 20 
recommendations, the GAO's recommendations. But have you 
prepared a written document that would be a road map or a plan 
to get the fiscal and the policy house in order?
    Mr. Marcus. Thank you, Congressman. We have developed a 
plan with respect to 20-odd recommendations which we are now 
implementing. With respect to the other reforms, we are taking 
as our road map for at least the beginning phases the 
recommendations of the Government Accountability Office 
beginning with the most recent reports, including the report 
which has not yet been formally issued. Our intent is to start 
with those findings that have already been made where we know 
what the problem is and where it's been documented and where we 
have recommendations which appear to be sound.
    That will take some year to accomplish. Those 
recommendations incorporate by reference additional 
recommendations by the OPM. So our starting point is with the 
recommendations that have already been made by the GAO in 
roughly reverse chronological order, including the OPM 
recommendations. I suspect that we will need substantial 
additional changes during what I would call the second year of 
reform, but the beginning phase is with the documents that are 
already publicly available from the GAO.
    Mr. King. Mr. Marcus, if this Congress were to have 
sufficient patience and lend itself to the plan that you would 
bring forward, what would be a specific date that you would ask 
for to present the changes before this Committee and 
demonstrate that the entire task of fiscal and policy and 
functional organization had been--would you be willing to put 
this back before the scrutiny of this Committee? What would be 
an appropriate time?
    Mr. Marcus. For problems that have built up over a period 
of many years, things can't be turned around in a day. I would 
think for a complete turnaround of the institution, it's hard 
in less than 2 years to do that. But I would say----
    Mr. King. That's sufficient. It gives me a sense. And I 
didn't want to nail you down to a specific date, but I get a 
general idea. The task is large. How many staff now work for 
the Commission?
    Mr. Marcus. The number fluctuates slightly, but it's 
approximately 67, including the 8 Commissioners and their 8 
assistants.
    Mr. King. Have any been hired since you came on board?
    Mr. Marcus. Yes. I have hired one and, in addition, there 
is, I believe, one who was hired subsequent to my--excuse me, 
was hired prior to my arrival but who arrived subsequent.
    Mr. King. So what would be full staffing, then, to fill 
those offices, if that's the intent?
    Mr. Marcus. Oh.
    Mr. King. I mean, I had understood that about 70 maybe was 
about full staff, but apparently in this testimony today, it 
might be more?
    Mr. Marcus. Well, we have some 37 vacant offices. As for 
the number of positions that we have that are vacant, I'm not 
sure of the number, but it's a substantial number. We certainly 
would need to have a larger number of people than we have now. 
Whether that number is equal to the number of formal vacancies, 
I'm not sure.
    Mr. King. More money, more people. And who hired the staff 
that's there today?
    Mr. Marcus. Some of them have been around for over 30 years 
and were hired by the staff directors from the seventies or the 
sixties. Most, and in particular, most in headquarters, were 
hired during the nineties and in the first few years of--since 
2000, so most was my immediate predecessor and his predecessor.
    Mr. King. Thank you. I'd ask unanimous consent for one more 
minute.
    Mr. Chabot. Without objection, so ordered.
    Mr. King. I thank the Chairman. I'd just direct the 
question to Mr. Harbison. Mr. Harbison, you've been involved in 
financial management for 30 years, and you spoke to your 
professionalism in your testimony and 14 years there with the 
Commission. And I'd ask you, do you believe it was your 
fiduciary responsibility to have a general ledger and keep 
track of that? And if--you know, yes or no on that one, and 
maybe some opinion, but also where is the general ledger?
    Mr. Harbison. The first question is yes, I do believe it. 
And the second question is that I'm advised that a general 
ledger does exist and has existed and has been provided to the 
auditors.
    Mr. King. But you as the financial officer do not have 
access to the general ledger and you've been there 14 years?
    Mr. Harbison. I am limiting those--the comments previously 
to the last year. Prior to that, yes, I did have access to the 
general ledger.
    Mr. King. Thank you, Mr. Harbison.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    Just to be clear, did you say you haven't had it for the 
last year?
    Mr. Harbison. That is correct, sir.
    Mr. Chabot. Where has it been?
    Mr. Harbison. It has been with the previous staff director 
and the contractor who's doing our accounting systems.
    Mr. Chabot. And to your knowledge, it's still with him or 
them?
    Mr. Harbison. It's with the accounting service provider 
that's doing--that's contracted to do our accounting.
    Mr. Chabot. Okay. But you haven't seen----
    Mr. Harbison. They maintained----
    Mr. Chabot. You haven't seen it or had access to it within 
the last year; is that correct?
    Mr. Harbison. That is correct.
    Mr. Chabot. Okay. Thank you very much.
    The gentleman from Michigan, the distinguished Ranking 
Member of the full Judiciary Committee, Mr. Conyers, is 
recognized for 5 minutes.
    Mr. Conyers. Thanks, Mr. Chairman.
    Let me ask our four witnesses if they have any free advice 
they would want to give us. I think I'm probably the last 
person that will be asking you questions. Is there--well, maybe 
there's only--I am the last.
    Let me start with Mr. Yaki. You're the most free of any 
past activities with this Committee, so you're considered the 
innocent witness.
    Mr. Yaki. Thank you. [Laughter.]
    Mr. Conyers. What are you--now that you've got the flavor 
of here in Congress, nobody got their hides skinned off, and 
there was no emotional outbursts, and everybody was pretty 
rational, what free advice would you leave the Members of the 
Committee and the Chairman and Ranking Member Nadler and the 
rest of us to think about as we move forward?
    Mr. Yaki. Thank you very much, Congressman Conyers, for 
asking that question, and in deference to Congressman King, I 
threw away my notes so he'd be more impressed with what I'd 
say.
    I think it's very important that we recognize that if there 
were sins of the past, that they not go toward shackling of the 
future of this Commission. I think it's important that the kind 
of oversight that this Commission or any agency needs or 
requires from the Congress is done in a way that ensures that 
our mission must go forward.
    I would say this: One of the things that struck me as the 
idea that was advanced by Mr. Redenbaugh about the clear 
purpose, I would disagree. I believe we have a clear purpose. I 
think that purpose is the general investigatory and fact-
finding function in enforcing and examining civil rights in 
America. I think that is sufficiently clear. I think what 
perhaps is not so clear is that as we move forward, we are 
looking at individual agendas. And I would submit--and I am 
going to suggest this to the entire Commission tomorrow--that 
we should look at a way to try and re-energize the agenda and 
the scope of the Civil Rights Commission and have national open 
hearings where people can come and talk and discuss and tell us 
what is going on out there, what are the new things that are 
happening, what things may not have been picked up on, are 
being underreported, overreported, not reported at all, so that 
we may begin to look at that and from the ground up fashion a 
truly national civil rights agenda. I think that is an 
important component of what we want to do going forward.
    But as for what this Committee does, I would hope that 
being someone who comes from Government and from a local 
legislature, I would hope that our staff director would work 
closely with the Chairman and the Ranking Member to apprise 
them of the reforms that are going on so they are comfortable 
moving forward to allow us to continue the important mission of 
protecting civil rights in this country.
    Mr. Conyers. Commissioner Redenbaugh, have you reconsidered 
your resignation based on the wonderfully warm reception you've 
received here in the Judiciary Committee?
    Mr. Redenbaugh. What I have considered is I'd rather come 
here than there. [Laughter.]
    It's much more collegial here. I was touched, Congressman 
Conyers, by what you said and particular thank you, but no, I 
have not.
    Mr. Conyers. Well, I have the suspicion you're going to try 
to help out and when people come to you, even Commissioners, 
for counsel that you'll probably give it anyway, even though 
you're not on it. And I want to encourage you to continue to 
look at it and also feel free to consult with a number of us 
here on the Committee, because, you know, let's face it, 
there's a certain amount of politicalization of the process 
that is unavoidable.
    Mr. Redenbaugh. Right.
    Mr. Conyers. I wish it weren't. Our votes frequently come 
in the floor, they're quite partisan. I mean, the D's vote one 
way, the R's vote another way, and yet we say but this issue is 
not a matter of Republicans or Democrats, but that's the way 
the vote goes.
    So I don't feel--I mean, I would like that to be minimized, 
the partisanship, but the fact that it exists in a subject as 
prickly as civil rights is not shocking to me. The question is 
can we all get it together, and this Committee plays a huge 
role in helping you facilitate that. And that's what we want to 
do.
    We're hoping that you'll avoid a lot of--as much partisan 
rancor as possible because it does, as everyone here has said 
so well, take away from the projects, the goals of the 
Commission itself. And we want to make sure that that 
continues.
    For example, we've got the Cato Institute, the Heritage 
Foundation, which now seem to be weighing in, Mr. Marcus, in 
big time on the opinions. Now, maybe they were all the time, 
anyway. I know there are very few subjects that they decline to 
get into. But we've got to make sure that this thing comes off 
right. For us to be investigating whether privatizing Social 
Security is going to shortchange African Americans, for 
example, Chairman Chabot, is a subject that is being gone into 
by the Ways and Means Committee and numerous experts.
    Mr. Chabot. The gentleman's time has expired, but if I 
could just comment. I don't know that anybody's talking about 
privatizing Social Security. There are some that are talking 
about personal savings accounts.
    Mr. Conyers. Personal savings accounts, okay. Same thing. 
[Laughter.]
    Right?
    Mr. Chabot. I thought you might think that, but I think 
there's a difference.
    Mr. Conyers. Okay. But even so, the President is on a 60-
day tour. Members of Congress have been urged to hold town hall 
meetings. But one of the--I haven't heard anybody suggest we 
ought to check with the U.S. Civil Rights Commission to see 
what they think about this.
    So, anyway, let's try to keep it down, ladies and 
gentlemen. Let's try to keep this thing on a realistic basis so 
that the cries of partisanship won't continue to arise again. 
And I want to thank all of you for coming here. I'm hoping that 
the Chairman of the Committee will see it in his interest to 
get the rest of the Commissioners up here and continue this 
kind of dialogue.
    Mr. Chabot. We're certainly willing to do everything that 
we can to make sure that all the information that this 
Committee needs to get adequate oversight of the Civil Rights 
Commission is done, and we would consider future hearings, and 
we would work with the minority staff to accomplish that, if 
it's deemed necessary and appropriate.
    We thank the gentleman for his comments, and I would now 
recognize the gentleman--is the gentleman from Indiana--did he 
leave? Okay.
    At this time if there are--we were going to go into a 
second panel. This has gone off--let me ask--I recognize myself 
for a couple of follow-up questions. If any other Members want 
to do that in the short time that we have.
    Let me ask, Mr. Marcus, just following up on some of the 
comments that Mr. Harbison had made in his testimony, relative 
to the ledger and the books and Booth and that sort of thing. 
Would you explain the duties of the Commission, the contracts 
to Booth Management, and could you explain--you know, you have 
the Director of Budget and Finance, and then you have Booth 
that apparently has a lot of the books. Would you explain 
whether the new director, who would be a GS-15 level Federal 
employee, would be responsible for the duties currently being 
performed by Booth Management?
    Mr. Marcus. Yes, Mr. Chairman. The accounting and financial 
functions as well as related administrative and management 
functions are within the Office of Management and under the 
responsibility of the Director of Management, Tina Louise 
Martin. The position of Director of Budget and Finance was 
previously held by Mr. Harbison, who is now Director of Human 
Resources and Personnel, which creates a vacancy which we will 
fill at the GS-15 level.
    That person will be responsible for oversight of all budget 
and financial matters, including additionally certain strategic 
planning responsibilities. That person will be responsible with 
dealing with oversight of all accounting practices. Currently 
we have a full service accounting provider named Booth. The new 
person would either interact with Booth or its successor, which 
might be a contractor or a combination of personnel.
    I suspect that whatever we do with the new Budget and 
Finance Director, we would need a substantial amount of the 
work to be outsourced either to Booth or to another entity.
    Mr. Chabot. Okay. Let me shift gears. Have you conducted a 
human resources evaluation of the Committee staff to get an 
accurate understanding of the Commission's staffing strength 
and needs? And what do you intend to do relative to making sure 
that the staff is as efficient as possible and that civil 
rights are being pursued?
    Mr. Marcus. I have, of course, done an informal evaluation 
of the needs of the staff so as to determine what needs to be 
done on a right-away basis in light of the various emergencies 
that we have currently. As for a more formal or larger-scale 
plan, I know there is discussion among some of the 
Commissioners of various sorts of audit or analyses that might 
be done, and I think that that is possibly within the rubric of 
reforms that they are being considered. Whether it would be 
simply an analysis or a form of personnel audit is, I think, 
something that they are in the process of considering.
    Mr. Chabot. Okay. Thank you.
    I have a number of other questions. We've got three votes 
on the floor, and I don't want to have the witnesses have to 
come back here. So let me just ask one final question, and then 
if any other Members have any questions they'd like to ask in 
the time we have left, we'd be willing to do that.
    Mr. Redenbaugh, let me go back to you. You had mentioned in 
your opening statement a number of things, but one thing you 
said struck me. You said that we don't have a clear purpose, we 
have agendas. And could you explain, expound upon that a bit, 
what you meant by that?
    Mr. Redenbaugh. Yes. What I mean by that is we don't have--
there's not an overarching theme or mission. To say that we're 
for civil rights doesn't--that merely announces we're not in 
the Department of Transportation. It doesn't--it isn't any 
organizing principle around which we can gather. So in the 
absence of that--and we have certain methods, like our fact-
finding that Commissioner Yaki spoke about is one of our 
methods, but there isn't a mission that the Commissioners have 
even considered or adopted or embraced. Then in the absence of 
that, there are agendas put forward by Commissioners for 
particular projects, myself included.
    Mr. Chabot. All right. Thank you very much. My time hasn't 
expired, but I'm going to call it expired.
    Mr. King, did you have any final thoughts or comments that 
you wanted to make?
    Mr. King. Thank you, Mr. Chairman. I do, and I'll try to 
keep them brief.
    As I sit here and listen to this testimony, I know there's 
a mountain of evidence underneath this testimony, and, Mr. 
Yaki, I appreciate you throwing away your notes and giving us 
your testimony. But I'm happy enough to hear it off the page, 
too, and it comes from the heart when it's truthful, and I know 
that you're limited in your background being on the Commission, 
but you gave us your best presentation today, and I appreciate 
that as well.
    I will just say that a lot of us here are out of patience 
or down to the very last few drops of it, and there have been 
some months to take some steps. And even though reaction to a 
GAO recommendation, there have been three or four other times 
that the GAO has made those recommendations when there hasn't 
been a response, and maybe we'll see some response this time. 
But I would say that it also is incumbent upon the Commission 
to be proactive, to step ahead of the GAO, and to lay out some 
solid terms of reform, both in agenda and purpose and also in 
financial management. And to have not had access to that 
general ledger for over a year in the position that you were 
in, Mr. Harbison, I can't express what that means to me. If I 
had a financial officer that said, well, I'm sorry, your 
finances are in a mess but I couldn't get my hands on the 
records, I just don't think that can be excused.
    Furthermore, I'd ask the Commission to lay out an agenda of 
issues they may want to take up, and some of those that comes 
to mind are Adarand, for example. I've spent my life in the 
contracting business. I know what that case says. I followed it 
from the beginning, and yet it has been circumvented by a thing 
called goals rather than quotas. Would that be an appropriate 
subject matter for a Commission to take up.
    There are a number of others, and rather than go down 
through that list, Mr. Chairman, I would just say that, you 
know, I've had a bit of a voice here and I would add one more 
thing, and that is that most of the staff has been hired by the 
predecessor, and that's where their loyalty would be, that's 
where their philosophy would be, and that's where the problem 
to some degree has been. And I would be--I would suspect that 
it would be very difficult to do an overhaul of your Commission 
without making changes in staff, to bring in fresh faces, fresh 
people, and fresh philosophy so that you could actually truly 
get a new start. And I think many of the Commissioners have 
voiced a commitment to make a new start, and those are my 
recommendations on how to do it.
    I thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. King. We appreciate 
your comments.
    Mr. Harbison, would you--you had a prepared statement. 
Would you be able to submit that for the record? I know most of 
your comments were----
    Mr. Harbison. I have pretty much marked the one I have up, 
Mr. Chairman. I'd be happy to perhaps submit it later.
    Mr. Chabot. That would be very good. If you could submit 
that, we'd appreciate it.
    I want to thank all the witnesses for being here this 
afternoon--or, excuse me, this morning, and we have some votes 
on the floor that we have to head over to right now. And, Mr. 
Redenbaugh, I'm particularly--again, we're sorry to see you go. 
We thank you very much for the 15 years that you spent. And I 
have to say just personally there have been a number of my 
fellow Members of Congress and others that have talked about 
doing away with the Civil Rights Commission. I do not 
personally share that view. What I would much rather do is 
reform the Civil Rights Commission and have it once again stand 
for those things that in some years it stood through, as you 
mentioned in your testimony, Mr. Yaki, very significant 
historical things that it played a role in. And it's had 
problems over the years, some of them mismanagement, some of it 
financial issues, and there's just so many things that need to 
be resolved, and we certainly want the Commission's cooperation 
in obtaining these things.
    And as I mentioned, I see some of the folks, the new folks, 
as really being part of the solution, not part of the problem, 
trying to reform this agency so that it can once again be the 
great Civil Rights Commission that it was intended to be. So 
that's what my hope is. I don't know whether that's going to be 
able to be accomplished or not, but that's certainly my goal.
    And thank you for being here this morning. If there's no 
further business to come before the Committee, we're adjourned. 
Thank you.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of George Harbison, Director of Human Resources, and 
  Acting Chief of Budget and Finance, U.S. Commission on Civil Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Response to post-hearing questions submitted by Chairman Steve Chabot 
     to Michael Yaki, Commissioner, U.S. Commission on Civil Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Response to post-hearing questions submitted by Chairman Steve Chabot 
 to Kenneth L. Marcus, Staff Director, U.S. Commission on Civil Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Response to post-hearing questions submitted by Chairman Steve Chabot 
 to George Harbison, Director of Human Resources, and Acting Chief of 
          Budget and Finance, U.S. Commission on Civil Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Letter of Resignation from Russell G. Redenbaugh, Commissioner, 
     U.S. Commission on Civil Rights, to Majority Leader Bill Frist

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Letter to Chairman Steve Chabot from Abigail Thernstrom, Vice Chairman, 
and Jennifer C. Braceras, Commissioner, U.S. Commission on Civil Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
